No.
IN THE

Supreme Court of the United States
ANDALUSIAN GLOBAL DESIGNATED
ACTIVITY COMPANY, ET AL.,
Petitioners,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

Pursuant to this Court’s Rule 29 and order of April 15, 2020, I hereby certify that
I am a member in good standing of the bar of this Court and that on this 31st day of
July, 2020, all parties required to be served have been served with one paper copy and
one electronic copy of the Petition for a Writ of Certiorari.
Counsel for the Financial Oversight and Management Board, as Representative for the
Employees Retirement System of the Government of the Commonwealth of Puerto Rico:
Martin J. Bienenstock
Stephen L. Ratner
Mark D. Harris
Jeffrey W. Levitan
Margaret A. Dale
PROSKAUER ROSE LLP
11 Times Square
New York, NY 10036
(212) 969-3000
mbienenstock@proskauer.com
sratner@proskauer.com
mharris@proskauer.com
jlevitan@proskauer.com
mdale@proskauer.com

Timothy W. Mungovan
John E. Roberts
William D. Dalsen
PROSKAUER ROSE LLP
One International Place
Boston, MA 02110
(617) 526-9600
tmungovan@proskauer.com
jroberts@proskauer.com
wdalsen@proskauer.com

Counsel for the Official Committee of Retired Employees of the Commonwealth of
Puerto Rico:
Catherine L. Steege
Melissa M. Root
JENNER & BLOCK LLP
353 N. Clark Street
Chicago, IL 60654
(312) 222-9350
csteege@jenner.com
mroot@jenner.com

A.J. Bennazar-Zequeira
Hector M. Mayol Kauffmann
BENNAZAR, GARCIA & MILIAN, C.S.P.
Edificio Union Plaza
1701 Avenida Ponce de Leon #416
Hato Rey, San Juan, PR 00918
(787) 754-9191
ajb@bennazar.org
hector.mayol@bennazar.com

Ian Heath Gershengorn
Lindsay C. Harrison
JENNER & BLOCK LLP
1099 New York Avenue, NW
Washington, DC 20001
(202) 639-6000
igershengorn@jenner.com
lharrison@jenner.com

Robert D. Gordon
Richard Levin
JENNER & BLOCK LLP
919 Third Avenue
New York, NY 10022
(212) 891-1600
rgordon@jenner.com
rlvein@jenner.com

2

